MANAGEMENT OF SEIZED ASSETS AND
        EVIDENCE BY THE
  BUREAU OF ALCOHOL, TOBACCO,
    FIREARMS AND EXPLOSIVES

       U.S. Department of Justice
     Office of the Inspector General
              Audit Division

          Audit Report 06-37
           September 2006
 MANAGEMENT OF SEIZED ASSETS AND EVIDENCE BY THE
         BUREAU OF ALCOHOL, TOBACCO,
           FIREARMS AND EXPLOSIVES

                             EXECUTIVE SUMMARY


      The Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF) law
enforcement functions were transferred on January 24, 2003, from the
Department of the Treasury (Treasury) to the Department of Justice (DOJ)
under the Homeland Security Act of 2002. ATF’s tax and trade functions
remained with Treasury.

      The ATF conducts criminal investigations, oversee the firearms and
explosives industries, and enforces federal laws and regulations related to
alcohol, tobacco, firearms, explosives, and arson. ATF headquarters is
located in Washington, D.C., and there are 23 field divisions comprised of
multiple field offices.

       In the course of criminal investigations, ATF seizes items for forfeiture
and evidentiary purposes, and stores the items in ATF vaults and explosive
storage bunkers. 1 Items seized may include alcohol, tobacco, firearms,
explosives, ammunition, vehicles, real property, currency, and computer
equipment. Between October 2003 and June 2006 ATF seized 240,802
items with an estimated fair market value of $57,510,372. ATF
subsequently disposes of forfeited assets after judicial action is completed.
Forfeited assets are disposed of using one of three actions: destruction,
sale, or placement into official use. Only certain items are deemed suitable
for official use: firearms, vehicles, or investigative equipment. 2

      Items seized by ATF for forfeiture are recorded, monitored, and
managed by ATF’s Asset Forfeiture and Seized Property Branch through its
Forfeited and Seized Assets Tracking System (FASTRAK), which is unique to
ATF. ATF currently does not participate in the DOJ asset forfeiture program,
which is managed by the United States Marshals Service (USMS). The DOJ
asset forfeiture program includes federal partners both within and outside

       1
         A bunker is a fortified chamber mostly below ground that is often built of
reinforced concrete.
       2
          Investigative equipment comprises items such as portable photographic and
optical equipment, sound recording or amplification equipment, radios, and televisions.
                                              i
DOJ. 3 The USMS has not yet assumed management of any of ATF’s assets
seized for forfeiture, because ATF uses FASTRAK to track its seized assets,
while the USMS and the other asset forfeiture partners use the Consolidated
Asset Tracking System (CATS).

      At the time of ATF’s transfer to DOJ, DOJ and Treasury signed a
memorandum of understanding (MOU) regarding the management and
disposition of assets seized for forfeiture by ATF. In accordance with the
MOU, assets seized on or before January 23, 2003, remained the property
and responsibility of Treasury, while assets seized on or after January 24,
2003, became the property and responsibility of DOJ.

      The MOU also stipulated that all assets seized for forfeiture by ATF on
or after January 24, 2003, would continue to be transferred to and disposed
of by Treasury’s national property contractor until an asset transition plan
between Treasury and DOJ could be implemented. All net proceeds from the
disposition of the assets were to be transferred to the DOJ Asset Forfeiture
Fund. 4

      The Office of the Inspector General (OIG) conducted this audit to
assess ATF’s management of seized assets. Our objectives were to:
(1) determine the status of ATF’s transition to DOJ’s system for managing
seized assets; and (2) assess the adequacy of ATF’s accounting for, storing,
safeguarding, and disposing of seized assets and evidence in its possession.



       3
          Asset forfeiture participants in DOJ include the Drug Enforcement Administration,
the Federal Bureau of Investigation, the United States Marshals Service, the United States
Attorneys’ Offices, the Asset Forfeiture and Money Laundering Section of the Criminal
Division, and the Justice Management Division’s Asset Forfeiture Management Staff. Non-
DOJ participants include the U.S. Department of Agriculture; the U.S. Postal Inspection
Service, which is the law enforcement unit of the U.S. Postal Service; the U.S. Food and
Drug Administration, which is part of the U.S. Department of Health and Human Services;
and the Bureau of Diplomatic Security, which is part of the U.S. Department of State.
       4
          The DOJ Asset Forfeiture Fund serves as a repository for funds seized by
participating agencies and the sale proceeds from forfeited property. According to Attorney
General Directive 90-5, the DOJ Asset Forfeiture Program has three primary goals: (1) to
punish and deter criminal activity by depriving criminals of property used or acquired
through illegal activities; (2) to enhance cooperation among foreign, federal, state, and local
law enforcement agencies through the equitable sharing of assets recovered through the
program; and (3) to produce revenues to enhance forfeitures and strengthen law
enforcement. The proceeds deposited in the Asset Forfeiture Fund are used to fund
allowable costs of the DOJ Asset Forfeiture Program.
                                              ii
       To accomplish our objectives, we reviewed and analyzed federal laws,
regulations, and DOJ policies and procedures applicable to seized assets, as
well as internal inspection reports for all 23 ATF field divisions. We reviewed
the MOU between Treasury and DOJ for the management and disposition of
property seized for forfeiture by ATF. We also reviewed three contractor
reports on FASTRAK and CATS. We interviewed officials from the ATF Asset
Forfeiture and Seized Property Branch, Asset Forfeiture Management Staff,
Special Agents-in-Charge of field divisions, and Resident Agents-in-Charge of
field offices.

Background

       Under the asset forfeiture statutes, property is formally forfeited only
after the government has completed a legal proceeding intended to give any
potential claimant due notice and an opportunity to contest the forfeiture.
Such forfeiture proceedings fall under the following categories:

      •     Administrative forfeiture — an action that permits the federal
            seizing agency to forfeit the property without judicial
            involvement.

      •     Criminal judicial forfeiture — an action included as part of a
            criminal prosecution.

      •     Civil judicial forfeiture — an action in a U.S. District Court
            against a specific piece of property (no person is named as a
            defendant).

        ATF categorizes items either as valued properties, which are items that
can be legally sold in the United States, or non-valued properties, which
either do not have a legal market in the United States or a saleable value to
the federal government. In general, valued and non-valued seized property
is initially recorded at its estimated fair market value in accordance with
Federal Accounting Standards, the Government Accountability Office, and
Office of Management and Budget guidelines. The values assigned are for
accounting recognition purposes only and are not necessarily the amount
realized upon final disposal. As detailed in the following table, the quantity
and value of items seized varies between fiscal years (FY) and by type of
property.




                                       iii
                     ATF SEIZED ITEMS AND THEIR ESTIMATED VALUES

                                                                                  FY 2006
                       FY 2004                       FY 2005
                                                                          (1st, 2nd, and 3rd Qtrs)
   Seized       Quantity                    Quantity                     Quantity
   Items        of Items        Value       of Items        Value        of Items        Value
Firearms           12,783      $3,825,809      27,656      $9,770,314       14,576      $5,255,157
Ammunition          5,312         166,833      12,456         487,962        5,976         155,447
Explosives            530         118,029       1,964       1,214,217          629           74,363
Vehicles               43         624,134          89         122,657          103         213,779
Vessels                 1           5,000           0                0            0               0
Alcohol                26           2,283          14           3,444            46             155
Tobacco               572       2,370,324    156,767        3,588,767          376         593,364
Other1                221       8,745,181         338       9,119,970          324      11,053,183
Totals            19,488 $15,857,593 199,284 $24,307,331                   22,030 $17,345,448
Source: Bureau of Alcohol, Tobacco, Firearms and Explosives
    1
      Includes currency or other monetary instruments, real property, and general merchandise.

   Types of Items Seized by ATF

         In FY 2005, ATF seized 199,284 valued and non-valued property items
   at an estimated fair market value of $24,307,331. As of June 30, 2006, an
   additional 22,030 items were seized at an estimated fair market value of
   $17,345,448. Valued property items include vehicles, alcohol, currency,
   jewelry, real property and computer equipment. Alcohol products are
   considered valued property because they can be sold, but only under certain
   conditions, such as if they are in the manufacturer’s original sealed
   packaging. Non-valued property items, which include firearms, silencers,
   ammunition, explosives, arson materials, contraband alcohol, and tobacco
   products are destroyed by ATF. 5

   Analysis of Seized Property Asset Management Systems

         As noted earlier, DOJ asset forfeiture participants use CATS and ATF
   uses FASTRAK to track the life cycle of property seized for forfeiture. Data
   maintained within the two systems identify specific pieces of property and
   provide details about the items, such as the seizing office; seizing agent;
   case number; the type, description, value, and quantity of the property; and
   any other information necessary to ensure the proper monitoring and
   disposition of the property.



          5
            Title 26 U.S.C. Chapter 53 § 5872 states that any firearm involved in a violation of
   the chapter will be subject to seizure and forfeiture and shall not be sold at public sale.
                                                iv
       When ATF transferred to the Department of Justice in January 2003,
the Asset Forfeiture Management Staff (AFMS) and ATF’s Asset Forfeiture
and Seized Property Branch reached a verbal agreement that suspended the
planned migration of ATF’s seized asset data into the Department’s CATS
because AFMS was upgrading its system. The upgrade changed the CATS
system from dedicated terminals in users’ offices to a browser-based system
allowing authorized users access to the system using non-dedicated
computers and the Internet. AFMS officials were concerned that injecting
ATF’s system requirements into CATS would delay the upgrade, adversely
affecting the rest of the DOJ asset forfeiture participants. The suspension
was intended to allow AFMS time to complete the upgrade of CATS prior to
migrating ATF data and its system requirements. The final conversion and
migration of ATF data from FASTRAK to CATS is on schedule and expected to
be completed by June 30, 2007.

       After ATF transferred to DOJ, the AFMS contracted with a non-profit
corporation for an analysis of the differences between CATS and FASTRAK,
an evaluation of alternative asset tracking approaches, and identification of
the preferred solution for managing both DOJ and ATF seized and forfeited
assets. AFMS utilized an existing ATF support contractor to develop a
summary of ATF data requirements that CATS did not support. Under the
identified preferred alternative, both CATS and FASTRAK capabilities would
be fully integrated into one system, a browser-based CATS. As a result, in
June 2005, the non-profit corporation issued a report that summarized 99
data requirements of FASTRAK that CATS did not support. ATF requires
more detailed information for its forfeiture case management system than
CATS provides. Some of the unsatisfied requirements are related to cases,
seizures, assets, firearms, forfeitures, disposition of items, and legal counsel
information. Examples of the unsatisfied requirements are the ability to
enter and maintain an Agent ID and the ability to enter and maintain the
item seizure number. As of June 14, 2006, 38 of the original 99
requirements remained unresolved. The remaining 38 requirements are
expected to be resolved by October 2006.

       Until all of ATF’s system requirements are satisfied, ATF will continue
to use FASTRAK to account for seized property. Operating ATF’s seized
asset management system cost DOJ $147,000 in FY 2004 and $210,000 in
FY 2005. Additionally, $300,000 was funded for FASTRAK in FY 2006. As of
August 26, 2006 ATF had expended approximately $76,000 and the balance
will be obligated prior to the end of the fiscal year.



                                       v
Accounting for ATF Funds at Treasury

       Since ATF uses its own asset management system, proceeds from the
sale of forfeited seized assets continue to be deposited with Treasury as
agreed in the MOU. As of June 30, 2006, ATF reported that Treasury was
holding $21,166,103 in combined seized and forfeited funds due DOJ. 6 Of
that amount, $16,164,234 represents seized currency pending forfeiture.
The remaining balance of $5,001,869 has been forfeited and when deposited
into the Asset Forfeiture Fund will be available for use by DOJ.

     The table below shows a breakdown of funds still on deposit at
Treasury that are due DOJ.

                             FUNDS AT TREASURY DUE DOJ

                    Types of Funds                                   6/30/06
        Seized Currency Pending Forfeiture                          $16,164,234
            Forfeited Currency
            Net of Sharing Payable                  $4,637,262
            Sales Proceeds
            Net of Sharing Payable                    $364,607
        Sub-total of
        Forfeited Currency and Sales Proceeds                        $5,001,869
        Net Monies Due to DOJ                                      $21,166,103
       Source: Bureau of Alcohol, Tobacco, Firearms and Explosives

      The Department’s AFMS and ATF’s Asset Forfeiture and Seized
Property Branch established a comprehensive record to serve as the detailed
accounting for all amounts due to DOJ and Treasury under the MOU. Until
May 2006, there was a disagreement between the two offices regarding the
documentation provided by ATF. According to the Assistant Director of the
AFMS, as of May 8, 2006, ATF had not provided adequate supporting
documentation regarding the number of cases, gross amounts, and sources
of expense and revenue attributable to the dollar amounts of each item
included in the forfeited currency and sales activity through
September 30, 2005. ATF’s Asset Forfeiture and Seized Property Branch
disagreed and asserted that it had provided the AFMS with the necessary
detailed accounting records.



       6
         The $21,166,103 has accumulated at Treasury since ATF’s transfer to DOJ in
January 2003. The forfeited funds are not in litigation, the legal process is complete.
However, funds pending forfeiture are in litigation.
                                             vi
      In June 2006, the AFMS informed the OIG that ATF’s Asset Forfeiture
and Seized Property Branch had provided it with the necessary
documentation and certification of completeness so that it could start the
process of the initial transfer of funds from Treasury. The initial transfer
request sent to Treasury was for $2,361,907 based on data as of
March 31, 2006. The two offices are still reconciling the remaining balance
of $2,639,962 ($5,001,869 minus $2,361,907), and will initiate transfer of
those funds once the reconciliation process is complete. Both offices expect
on-going reconciliation of any future funds that become available thereafter.
This ongoing reconciliation will facilitate quarterly transfer requests to
Treasury from the AFMS.

       After 44 months, ATF and the AFMS have resolved the accounting
documentation problem regarding the forfeited fund balance deposited at
Treasury. However, the funds are still at Treasury and therefore, are not
available for immediate use by DOJ to fund the Asset Forfeiture Fund or to
pay for operating costs and related law enforcement programs associated
with the Fund. The key problem – that ATF has not migrated its forfeited
asset data to CATS – remains the underlying issue. Once ATF can migrate
to CATS all of its assets seized for forfeiture will be captured by CATS. Once
the data maintained in ATF’s FASTRAK system is migrated to CATS, AFMS
and ATF will be in a position to acquire and manage all of the funds (both
forfeited and pending forfeiture).

Storing and Safeguarding Seized Assets

       ATF does not have a plan that specifically addresses safeguarding
seized assets and evidence in the event of a natural disaster or other
significant event. Of the three field offices affected by Hurricane Katrina
(New Orleans, Louisiana; Mobile, Alabama; and Biloxi, Mississippi), none
identified an alternate storage location for safeguarding its seized assets and
evidence. The Biloxi, Mississippi, Field Office, located on the shoreline,
encountered significant hurricane damage. Because ATF did not have a
contingency plan in place to safeguard seized assets and evidence from
potential theft, destruction, or damage, the vault contents remained in Biloxi
during the hurricane and had to be recovered from the structurally unstable
Biloxi Field Office after the hurricane and relocated multiple times to various




                                      vii
alternate sites. 7 By having a plan in place, ATF may have been able to
reduce the number of times the vault contents were moved.

       Further, ATF management has not enforced all of the requirements of
ATF Order 3400.1B, Property Taken Into Bureau Custody. This Order
prescribes basic procedures governing reporting and controlling of property
from the time of initial acquisition to its final disposition. The Order sets
forth facility and equipment requirements, access requirements and
restrictions, inventory procedures, and property control. We found that one
of the eight vaults we tested did not meet vault construction standards
because a wire-mesh barrier above the chain-link fence intended to protect
against unauthorized entry had not been installed. This condition was noted
as an exception to the requirements of ATF Order 3400.1B in ATF’s 1997,
2000, and 2003 Office of Field Operations inspection reports. The condition
leaves the vault vulnerable to unauthorized entry and increases the risk of
theft of seized property and evidence. (See Appendix IV for a complete list
of our test results.)

        Effective July 2005, every firearm coming into ATF custody or being
investigated by ATF is required to be traced through the ATF National
Tracing Center. We found 6 of 130 firearms we tested, or 5 percent were
not traced through the National Tracing Center. We determined that the
seizing agents either did not request a trace of the seized firearms through
the National Tracing Center or traced them with an incorrect serial number.
All firearms manufactured in 1968 or after have unique serial numbers. Not
tracing a firearm or submitting a wrong serial number through the National
Tracing Center equates to not accounting for the correct firearm. Further,
this situation prevents the correct information from being received in an
accurate and timely manner. It also potentially prevents ATF from linking a
suspect to a firearm in a criminal investigation; identifying potential
traffickers; detecting intrastate, interstate, and international patterns in the
sources and kinds of firearms used in crimes.




       7
          The locations were the Biloxi police department; the Jackson, Mississippi, federal
building parking garage basement; the Memphis, Tennessee, national contractor storage;
and the Mobile, Alabama, national contractor storage.
                                             viii
Recommendations

      Our audit disclosed areas where improvements can be made to ATF’s
management of seized assets relating to the use of DOJ’s asset management
system; accounting for, storing, and safeguarding seized property; and
proactively responding to natural disasters.

       This report contains five recommendations that focus on the need to
resolve ATF’s asset management system requirements that are necessary to
fully support migration of FASTRAK data into CATS, provide appropriate
supporting documentation to the AFMS about seized and forfeited assets,
and expedite the reconciliation so that current and future funds at Treasury
can be promptly transferred to the DOJ Asset Forfeiture Fund. Equally
important, we determined that seizing agents either did not request a trace
of seized firearms through the National Tracing Center or traced them with
an incorrect serial number. ATF also lacks a proactive contingency plan that
addresses accounting for, storing, and safeguarding seized assets and
evidence in the event of a natural disaster or significant event.




                                     ix
                                TABLE OF CONTENTS
                                                                                                Page

INTRODUCTION .................................................................1
       Background................................................................................ 3
       Items Seized by ATF.................................................................... 4
       History ...................................................................................... 7
       Analysis of Seized Property Asset Management Systems................... 7
       Prior Audits .............................................................................. 10

FINDINGS AND RECOMMENDATIONS...............................................11
1.  FASTRAK INTEGRATION WITH CATS REMAINS DELAYED ........11
    Maintenance Costs and Funds Remaining at Treasury..................... 12
    Conclusion ............................................................................... 14
    Recommendations..................................................................... 14

2.     INADEQUATE CONTINGENCY PLAN AND CONTROLS FOR
        STORING AND SAFEGUARDING SEIZED ASSETS ....................15
       Controls for Storing and Safeguarding Seized Assets...................... 15
       Critical Incident Management System and ATF Order 3400.1B......... 18
       Compliance Testing... ................................................................ 20
       Conclusion ............................................................................... 22
       Recommendations..................................................................... 22

APPENDICES .......................................................................23
    Appendix I - Statement on Management Controls ....................... 23
    Appendix II - Statement on Compliance with Laws and
                    Regulations ....................................................... 24
    Appendix III - Objectives, Scope, and Methodology ....................... 26
    Appendix IV - Results of Audit Testing......................................... 29
    Appendix V - Acronyms............................................................ 31
    Appendix VI - ATF Response to the Audit Recommendations........... 32
    Appendix VII - Office of the Inspector General, Audit Division,
                    Analysis and Summary of Actions Necessary
                    to Close Report .................................................. 35
 MANAGEMENT OF SEIZED ASSETS AND EVIDENCE BY THE
         BUREAU OF ALCOHOL, TOBACCO,
           FIREARMS AND EXPLOSIVES

                             INTRODUCTION


      The mission of the Bureau of Alcohol, Tobacco, Firearms and
Explosives (ATF) is to conduct criminal investigations, oversee the firearms
and explosives industries, and enforce federal laws and regulations related
to alcohol, tobacco, firearms, explosives, and arson. ATF’s mission also
includes working in cooperation with federal, state, and local law
enforcement agencies. ATF views its role in enforcing firearms and
explosives laws as significant in the battle against terrorism and supports a
strategic goal of the Department of Justice (DOJ) to “enforce federal laws
and represent the rights and interests of the American people.”

      ATF’s law enforcement functions were transferred on January 24,
2003, from the Department of the Treasury (Treasury) to DOJ under the
Homeland Security Act of 2002. ATF’s tax and trade functions remained
with Treasury. ATF headquarters is located in Washington, D.C., and there
are 23 ATF field divisions comprised of multiple field offices.


                   ATF FIELD DIVISION OFFICE LOCATIONS




             Source: Bureau of Alcohol, Tobacco, Firearms and Explosives
       In the course of its criminal investigations, ATF seizes items for
forfeiture and evidentiary purposes. Seized items are stored in ATF vaults
and explosive storage bunkers. 8 Items seized may include alcohol, tobacco,
firearms, explosives, ammunition, vehicles, real property, currency, and
computer equipment. Those items seized for forfeiture are recorded,
monitored, and managed by ATF’s Asset Forfeiture and Seized Property
Branch through its Forfeited and Seized Assets Tracking System (FASTRAK),
a system unique to ATF. ATF disposes of forfeited assets after judicial action
is completed. Forfeited assets are disposed of using one of three actions:
destruction, sale, or placement into official use. Only certain items are
deemed suitable for official use: firearms, vehicles, or investigative
equipment. 9

      As part of ATF’s transfer, DOJ and Treasury signed a memorandum of
understanding (MOU) regarding ATF’s management and disposition of assets
seized for forfeiture. In accordance with the MOU, assets seized on or
before January 23, 2003, remained the property and responsibility of
Treasury. Assets seized on or after January 24, 2003, became the property
and responsibility of DOJ.

       The MOU stipulated that all assets seized for forfeiture by ATF on or
after January 24, 2003, would continue to be transferred to and disposed of
by Treasury’s national property contractor until an asset transition plan
between Treasury and DOJ could be implemented. All net proceeds from
those dispositions were to be transferred to the DOJ Asset Forfeiture Fund. 10
Both agencies agreed to provide a timely response to any request for
information pertaining to assets covered by the MOU.



       8
         A bunker is a fortified chamber mostly below ground that is often built of
reinforced concrete.
       9
        Investigative equipment includes items such as portable photographic and optical
equipment, sound recording or amplification equipment, radios, and televisions.
       10
           The DOJ Asset Forfeiture Fund serves as a repository for funds seized by
participating agencies and the sale proceeds from forfeited property. According to Attorney
General Directive 90-5, the DOJ Asset Forfeiture Program has three primary goals: (1) to
punish and deter criminal activity by depriving criminals of property used or acquired
through illegal activities; (2) to enhance cooperation among foreign, federal, state, and local
law enforcement agencies through the equitable sharing of assets recovered through the
program; and (3) to produce revenues to enhance forfeitures and strengthen law
enforcement. The proceeds deposited in the Asset Forfeiture Fund are used to fund
allowable costs of the DOJ Asset Forfeiture Program.
                                              2
       The United States Marshals Service (USMS) administers the DOJ asset
forfeiture program, which includes federal partners both within and outside
DOJ. 11 The United States Marshals Service has not assumed management
of any of ATF’s assets seized for forfeiture, however, because ATF uses
FASTRAK to track its seized assets and the USMS and the other asset
forfeiture partners use the Consolidated Asset Tracking System (CATS).

      The Office of the Inspector General (OIG) conducted this audit to
examine ATF’s management of assets seized during investigations of
suspected criminal activity. Our objectives were to: (1) determine the
status of ATF’s transition to DOJ’s system for managing seized assets; and
(2) assess the adequacy of ATF’s accounting for, storing, safeguarding, and
disposing of seized assets and evidence in its possession.

Background

      Under the forfeiture statutes, property is formally forfeited only after
the government has completed a legal proceeding intended to give any
potential claimant due notice and an opportunity to contest the forfeiture.
Such forfeiture proceedings fall into the following categories:

       •      Administrative forfeiture is an action that permits the federal
              seizing agency to forfeit property without judicial involvement.
              The authority for a seizing agency to start an administrative
              forfeiture action is found in the Tariff Act of 1930,
              19 U.S.C. § 1607. Property that can be administratively
              forfeited is merchandise, the importation of which is prohibited;
              a conveyance used to import, transport, or store a controlled
              substance such as vehicles, vessels, airplanes, or conex boxes;
              monetary instruments such as coins, currency, travelers’ checks,




       11
           Asset forfeiture participants in DOJ include the Drug Enforcement Administration,
Federal Bureau of Investigation, United States Marshals Service, United States Attorneys’
Offices, the Asset Forfeiture and Money Laundering Section of the Criminal Division, and the
Justice Management Division’s Asset Forfeiture Management Staff. Non-DOJ participants
include the U.S. Department of Agriculture; the U.S. Postal Inspection Service which is the
law enforcement unit of the U.S. Postal Service; the U.S. Food and Drug Administration,
which is part of the U.S. Department of Health and Human Services; and the Bureau of
Diplomatic Security, which is part of the U.S. Department of State.

                                             3
              bearer instruments, or bearer securities regardless of value; or
              other property that does not exceed $500,000 in value. 12

       •      Criminal judicial forfeiture is an action included as part of a
              criminal prosecution. In a criminal judicial forfeiture, the
              defendant is charged with an offense for which forfeiture is
              authorized, and an additional count or forfeiture allegation
              describing the property and its relationship to the criminal
              offense is included in the indictment. Upon conviction for the
              underlying offense, the court may order the involved property
              forfeited to the government.

       •      Civil judicial forfeiture is an action in a U.S. District Court against
              a specific piece of property (no person is named as a defendant).
              Civil judicial forfeitures are pursued independent of any criminal
              prosecution of the offense that justified the seizure. A judicial
              forfeiture (either criminal or civil) is always utilized when the
              value of the personal property involved is in excess of $500,000
              (with the exception of cash), when the property is real estate,
              when ATF lacks administrative forfeiture authority, or a claim
              has been filed as a result of an administrative forfeiture.

Items Seized by ATF

       In fiscal year (FY) 2005, ATF seized 199,284 property items at an
estimated value of $24,307,331. As of June 30, 2006, an additional 22,030
items were seized at an estimated value of $17,345,448. Valued properties
are items that can be legally sold in the United States such as vehicles,
vessels, real property, jewelry, and alcohol. Non-valued properties are
items that either do not have a legal market in the United States or a
saleable value to the federal government such as firearms, silencers,
ammunition, explosives, and tobacco. 13 These non-valued items are
disposed of using ATF-approved methods. In general, both valued and non-
valued items are assigned an estimated fair market value in accordance with
Federal Accounting Standards, the Government Accountability Office, and
Office of Management and Budget guidelines. The values assigned are for

       12
           Bearer instrument – a document that indicates the bearer has title to property,
such as shares or bonds. Bearer security – possession of the security confers ownership as
there is no register of ownership.
       13
          Title 26 U.S.C. Chapter 53 § 5872 states that any firearm involved in a violation
of the chapter shall not be sold at public sale.
                                             4
accounting recognition purposes only and are not necessarily the amount
realized upon final disposal. Although all items seized are assigned a fair
market value, the majority of the items are deemed non-valued property.


      Examples of items seized by ATF are:

      •     Firearms — handguns, rifles, shotguns, machine-guns, sawed-off
            rifles or shotguns, machine-gun conversion kits, or assault
            weapons

      •     Silencers — devices placed on firearms that are used to suppress
            the noise from discharges

      •     Ammunition — cartridges, or cartridge cases, and cartridge
            components that can be used in any firearm

      •     Explosives — blasting caps, detonation cords, bomb debris, and
            destruction devices

      •     Vehicles — automobiles, motorcycles, aircraft, and vessels

      •     Arson materials — arson debris, incendiary devices, and any
            other material related to the arson under investigation

      •     Alcohol — legally and illegally acquired liquor, mash, stills, and
            other related equipment

      •     Tobacco — cigarettes (contraband, stolen, or no tax paid)

      •     Other — currency or other monetary instruments, jewelry,
            drugs, financial records, documents, computer equipment,
            general merchandise, real property, and electronic intercepts.

      As detailed in the following table, the quantity and value of items
seized varies widely from year to year.




                                       5
                    ATF SEIZED ITEMS AND THEIR ESTIMATED VALUES

                                                                                FY 2006
                       FY 2004                      FY 2005
                                                                        (1st, 2nd, and 3rd Qtrs)
   Seized       Quantity                    Quantity                   Quantity
   Items        of Items        Value       of Items        Value      of Items        Value
Firearms           12,783      $3,825,809      27,656      $9,770,314     14,576      $5,255,157
Ammunition          5,312         166,833      12,456         487,962      5,976         155,447
Explosives            530         118,029       1,964       1,214,217        629           74,363
Vehicles               43         624,134          89         122,657        103         213,779
Vessels                 1           5,000           0                0          0               0
Alcohol                26           2,283          14           3,444          46             155
Tobacco               572       2,370,324    156,767        3,588,767        376         593,364
Other1                221       8,745,181         338       9,119,970        324      11,053,183
Totals            19,488 $15,857,593 199,284 $24,307,331                 22,030 $17,345,448
Source: Bureau of Alcohol, Tobacco, Firearms and Explosives
    1
      Includes currency or other monetary instruments, real property, and general merchandise.

          Since forfeited assets are not necessarily disposed of in the same fiscal
   year or at the value they were originally assigned when they were seized,
   the amounts shown in the previous table and the one below will not
   reconcile. The table below lists both assets seized and forfeited by ATF and
   their associated disposal values.

                             NET PROCEEDS FROM ASSETS SOLD

                                                                               FY 2006
                        FY 2004                     FY 2005            (1st, 2nd, and 3rd Qtrs)
    Forfeited    Quantity                    Quantity                  Quantity
     Assets      of Items     Value          of Items      Value       of Items        Value
 Firearms              761          $0            7,591          $0        6,642             $0
 Ammunition          4,059           0            4,229           0        3,425              0
 Explosives          9,492           0              502           0          325              0
 Vehicles               19     135,895               27     270,280            33       306,145
 Vessels                 0           0                0           0             0             0
 Alcohol                 2       6,400               33           0             8             0
 Tobacco                20     197,146               33           0          232        134,909
 Other1                 67   4,296,545              161   2,515,647          108      1,940,064
 Actual and
 Estimated
 Expenses2                    (2,656,199)                (1,745,080)                  (914,529)
 Totals              14,420 $1,979,787         12,576 1,040,847         10,773     $1,466,589
   Source: Bureau of Alcohol, Tobacco, Firearms and Explosives
   1
     Includes monetary instruments, real property, and general merchandise.
   2
     Primarily for storage and disposal costs.



                                                6
History

      In 1990, the DOJ Deputy Attorney General approved the
implementation of three specific recommendations related to DOJ’s need for
the most cost-effective and accurate means to manage and improve the DOJ
asset forfeiture program. The three recommendations were:

       •      The Executive Office for Asset Forfeiture was directed to use the
              Asset Forfeiture Fund for the design and development of a
              single, integrated asset forfeiture information system for DOJ. 14

       •      All DOJ organizations participating in the asset forfeiture
              program were directed to revise their automation planning,
              development, and installation efforts to incorporate the
              integrated DOJ-wide system as the primary source of operational
              support and management information for the asset forfeiture
              program.

       •      All DOJ organizations were directed to develop plans for orderly
              transition to the new integrated asset forfeiture system from any
              automated system that competed with the new system in scope,
              function, or purpose. The transition plan was to be submitted
              for approval to the Office of the Deputy Attorney General. Any
              investment to enhance the existing systems, regardless of the
              source of funding, was to be consistent with the transition plan
              and submitted for approval to the Office of the Deputy Attorney
              General.

Analysis of Seized Property Asset Management Systems

      As noted earlier, DOJ asset forfeiture participants use CATS and ATF
uses FASTRAK to track the life cycle of property seized for forfeiture. Data
maintained within both systems identify specific pieces of property and
provide details about the items, such as the seizing office; seizing agent;
case number; the type, description, and value of the property; and any
other facts necessary to ensure proper monitoring and disposition of the
property.



       14
           The Department reassigned the policy functions of the Executive Office for Asset
Forfeiture to the Criminal Division in 1994. At the same time, the financial and
administrative functions were transferred to the Justice Management Division.
                                             7
       When ATF transferred to DOJ in January 2003, the Asset Forfeiture
Management Staff (AFMS) and ATF’s Asset Forfeiture and Seized Property
Branch reached a verbal agreement to suspend the planned migration of
ATF’s seized asset data into the Department’s CATS because the AFMS was
upgrading its system. The upgrade changed the CATS system from
dedicated terminals in user offices to a browser-based system allowing
authorized users to access the system using non-dedicated computers on
the Intranet. AFMS officials were concerned that injecting ATF’s system
requirements into CATS would delay the upgrade schedule, adversely
affecting asset forfeiture participants. The suspension was intended to allow
the AFMS time to complete the upgrade of CATS prior to migrating ATF data
and its system requirements.

      After ATF transferred to DOJ, the AFMS contracted with a non-profit
corporation for an analysis of the functional differences between CATS and
FASTRAK. In June 2003, the results of the analysis were reported in the
CATS-FASTRAK Gap Analysis, and included the following:

     •     CATS and FASTRAK function on different operating systems, use
           different software applications, and have different network
           environments.

     •     There are significant differences in the two systems for data
           elements, data definitions, and the structure of data tables.

     •     FASTRAK can create detailed reports for firearms and
           ammunition that CATS cannot produce.

       The AFMS contractor also provided an evaluation of alternative asset
tracking approaches that would support the management of ATF’s seized and
forfeited assets within DOJ. A second report issued in July 2003, entitled
CATS-FASTRAK Alternatives Analysis and Recommendations, presented five
alternatives for ATF’s use of CATS.

     •     Alternative 1 — ATF would continue to use FASTRAK and would
           continue to realize the benefits of the full complement of
           FASTRAK capabilities. DOJ would not have a common database
           of seized and forfeited assets and the tracking process would
           likely be cumbersome and inefficient.




                                      8
      •     Alternative 2 — ATF would be required to use CATS and a
            common database would exist for all DOJ-seized and forfeited
            assets.

      •     Alternative 3 — FASTRAK would be integrated with CATS and all
            of the current FASTRAK functions and capabilities would be
            supported by CATS. Incorporating this functionality would
            require a significant software development effort.

      •     Alternative 4 — FASTRAK would have an electronic interface with
            CATS, and ATF would continue to realize the benefits of the full
            complement of FASTRAK capabilities. CATS and FASTRAK also
            would share a common database accessible to all DOJ asset
            forfeiture participants. The development of an electronic
            interface between CATS and FASTRAK would likely be a costly
            endeavor, given the significant differences in the database
            design of the two systems.

      •     Alternative 5 — FASTRAK and CATS would migrate to the
            browser-based CATS, fully integrating FASTRAK functions and
            capabilities. FASTRAK and CATS would exist as parallel systems
            for a period of time, requiring maintenance of both systems.

       The report recommended Alternative 5 for managing DOJ seized and
forfeited asset tracking processes.

       AFMS utilized an existing ATF support contractor to assess 658
individual ATF system requirements. A third report issued in June 2005,
ATF-FASTRAK – Version 7.0.9/DOJ BBC Gap Analysis Summary 3.0,
identified 99 ATF data requirements that CATS could not satisfy. ATF
requires more detailed information for its forfeiture case management
system than CATS provides. Some of the unsatisfied requirements are
related to cases, seizures, assets, firearms, forfeitures, disposition of items,
and legal counsel information. Examples are the ability to enter and
maintain an Agent ID and the ability to enter and maintain the item seizure
number. As of June 14, 2006, 38 of the original 99 requirements remained
unresolved. The remaining 38 requirements are expected to be resolved by
October 2006.




                                       9
Prior Audits

       In June 2002, the Department of the Treasury, Office of the Inspector
General, conducted an audit of ATF’s controls over selected property items
that if lost or stolen, might compromise national security, the public’s safety,
or ongoing investigations. The report, entitled Protecting the Public: Bureau
of Alcohol, Tobacco and Firearms’ Control Over Sensitive Property is
Adequate, made three recommendations related to the area of seized and
forfeited property. The report recommended: (1) adequate physical
security measures be in place at all facilities – both ATF and contractor
controlled – that store seized and forfeited property; (2) all seized and
forfeited property storage vaults maintain entry logs; and (3) all seized and
forfeited property be entered into the tracking system in a timely manner.




                                      10
                 FINDINGS AND RECOMMENDATIONS

1.   FASTRAK INTEGRATION WITH CATS REMAINS DELAYED

           ATF and DOJ have delayed incorporation of ATF’s
           asset management functions and data into DOJ’s
           new browser-based CATS because AFMS was
           currently in the process of upgrading the system.
           The two offices are still working on resolving ATF’s
           data requirements of CATS. As a result, DOJ has
           continued to fund the maintenance of two asset
           management systems. In FY 2004 and 2005, it cost
           DOJ $357,000 to maintain ATF’s FASTRAK.
           Additionally, $300,000 was funded to run FASTRAK
           for FY 2006. As of August 26, 2006 ATF had
           expended approximately $76,000 and the balance
           will be obligated prior to the end of the fiscal year.

      To determine the status of the transition and the planned schedule for
completion of the process, we interviewed officials from DOJ’s AFMS and
ATF’s Asset Forfeiture and Seized Property Branch. We reviewed ATF’s data
management requirements for CATS, the FASTRAK requirements that CATS
did not support, and actions necessary to resolve the unsatisfied
requirements. Additionally, we reviewed DOJ policies and procedures that
apply to seized and forfeited assets.

      The Director of the AFMS informed the OIG that AFMS had been
working with ATF management since its transfer to DOJ in 2003 to facilitate
the migration of ATF’s seized and forfeited property data into the CATS
system to meet the Deputy Attorney General’s mandate. In November
2005, the AFMS submitted a technical proposal to ATF requesting review and
comments. The proposal offered to move ATF’s FASTRAK users to CATS in a
phased migration, eliminating the need for ATF to enter the same data into
the two separate asset management systems. The first phase proposed an
electronic migration of all valued assets currently maintained in ATF’s
FASTRAK system to CATS and to redirect all future valued asset data to it as
well. FASTRAK users would then use CATS to manage and administer all
valued assets, while continuing to use FASTRAK to manage and administer
all non-valued assets. The second phase focused on the automated
migration of non-valued asset data and the incorporation of the FASTRAK
functions into CATS that were required by ATF but currently not satisfied by

                                     11
CATS. The proposal stated that work on the project would begin in
December 2005.

      ATF’s Asset Forfeiture and Seized Property Branch reviewed the draft
technical proposal and the Assistant Director of the ATF’s Office of
Management requested a meeting with AFMS to discuss the 99 unsupported
requirements that needed to be resolved from the June 2005
ATF-FASTRAK – Version 7.0.9/DOJ BBC Gap Analysis Summary 3.0. The
unsupported requirements were ATF elements that are currently in the
FASTRAK system but not in CATS. The AFMS and ATF are collectively
analyzing the unsatisfied requirements. There were approximately 111
elements that were determined to be alternatively satisfied by other CATS
applications or ultimately deemed unnecessary by ATF. The remaining 99
unsatisfied requirements were related to items such as cases, seizures,
assets, firearms, forfeitures, disposition of items, and legal counsel
information. Examples are the ability to enter and maintain an Agent ID and
the ability to enter and maintain the item seizure number.

      The AFMS and ATF Asset Forfeiture and Seized Property Branch
worked together to ensure the new modules developed in CATS reflected
ATF’s requirement specifications. As of June 14, 2006, 38 of the original
99 unsatisfied requirements remained unresolved. The AFMS and ATF Asset
Forfeiture and Seized Property Branch expect the remaining 38 requirements
to be resolved by October 2006.

      A preliminary schedule to move FASTRAK data to CATS was agreed to
by the AFMS and ATF on February 14, 2006, and the first phase of the
FASTRAK migration to CATS began March 9, 2006. ATF and DOJ expect to
complete this phase by September 21, 2006. The final conversion and
migration of ATF data from FASTRAK to CATS is on schedule and expected to
be completed by June 30, 2007.

Maintenance Costs and Funds Remaining at Treasury

      Operating and maintaining FASTRAK cost DOJ $147,000 in FY 2004
and $210,000 in FY 2005. Additionally, $300,000 was funded for FASTRAK
in FY 2006. As of August 26, 2006 ATF had expended approximately
$76,000 and the balance will be obligated prior to the end of the fiscal year.
As of June 2006, the requirements for FASTRAK still were not being met by
CATS, and ATF continued to use its FASTRAK system.



                                      12
       As a result of the delay in migrating FASTRAK data into CATS,
proceeds from the sale of forfeited seized assets remained on deposit with
Treasury, rather than being deposited directly into the DOJ Asset Forfeiture
Fund. ATF reported that Treasury was holding $21,166,103 in combined
seized and forfeited funds due DOJ as of June 30, 2006. 15 Of that amount,
$16,164,234 represents seized currency pending forfeiture. The remaining
balance of $5,001,869 has already been forfeited, and once it is deposited
into the Asset Forfeiture Fund will be available for use by DOJ.

      The table below shows a breakdown of the funds deposited at Treasury
as of June 30, 2006, that are due DOJ.

                           FUNDS AT TREASURY DUE DOJ

                   Types of Funds                                   6/30/06
       Seized Currency Pending Forfeiture                          $16,164,234
           Forfeited Currency
           Net of Sharing Payable                  $4,637,262
           Sales Proceeds
           Net of Sharing Payable                    $364,607
       Sub-total of
       Forfeited Currency and Sales Proceeds                        $5,001,869
       Net Monies Due to DOJ                                      $21,166,103
      Source: Bureau of Alcohol, Tobacco, Firearms and Explosives

       The Department’s AFMS and ATF’s Asset Forfeiture and Seized
Property Branch established a comprehensive record to serve as the detailed
accounting for all amounts due to DOJ and Treasury under the MOU. Until
May 2006, there was disagreement between the two offices regarding the
documentation provided by ATF. The Assistant Director of the AFMS
informed the OIG that as of May 8, 2006, ATF had not provided adequate
supporting documentation regarding the number of cases, gross amounts,
and sources of expense and revenue attributable to the dollar amounts of
each item included in the forfeited currency and sales activity through
September 30, 2005. ATF’s Asset Forfeiture and Seized Property Branch
staff disagreed and asserted that it had provided the AFMS with the
necessary detailed accounting records.

     In June 2006, the AFMS informed the OIG that ATF’s Asset Forfeiture
and Seized Property Branch had provided it with the necessary
documentation and certification of completeness so that it could start the
      15
         The $21,166,103 has accumulated at Treasury since ATF’s transfer to DOJ in
January 2003. Litigation has been completed on the forfeited funds portion.
                                          13
process of the initial transfer of funds from Treasury. The initial transfer
request sent to Treasury was for $2,361,907, based on data as of
March 31, 2006. The two offices are still reconciling the remaining balance
of $2,639,962 ($5,001,869 minus $2,361,907), and will initiate transfer of
those funds once the reconciliation process is complete. Both offices expect
ongoing reconciliations of any future funds that become available. The
ongoing reconciliation will facilitate quarterly transfer requests to Treasury.

Conclusion

      More than three years after being transferred into DOJ, ATF continues
using its own asset management tracking system, FASTRAK, instead of the
Department’s CATS. While ATF’s Asset Forfeiture and Seized Property
Branch and the Department’s AFMS have been working to resolve ATF’s
management tracking requirements, DOJ continues to spend additional
funds for the maintenance of the two separate systems.

      As a result of ATF’s delayed migration to CATS, $5,001,869 in forfeited
funds has remained on deposit with Treasury rather than in the DOJ Asset
Forfeiture Fund. The key problem – that ATF has not migrated its forfeited
asset data to CATS – remains the underlying issue. In addition, the
disagreement between the AFMS and ATF’s Asset Forfeiture and Seized
Property Branch concerning the reconciliation and accounting for the funds
at Treasury has resulted in those same funds remaining at Treasury. As a
result, the net proceeds of forfeited asset funds are not available for
immediate use by DOJ to fund the Asset Forfeiture Fund program operating
costs and related law enforcement programs.

Recommendations

      We recommend that ATF:

1.    Continue to work with the AFMS to resolve the outstanding ATF
      system’s compatibility requirements and complete the migration of
      ATF’s data from FASTRAK to CATS by the scheduled completion date of
      April 13, 2007.

2.    Provide appropriate supporting documentation to the AFMS for
      forfeited funds deposited with Treasury so that current and future
      funds can be expeditiously reconciled with Treasury and transferred to
      the DOJ Asset Forfeiture Fund.

                                      14
2.    INADEQUATE CONTINGENCY PLAN AND CONTROLS FOR
      STORING AND SAFEGUARDING SEIZED ASSETS

            ATF’s contingency plan does not address
            safeguarding seized assets and evidence in the event
            of a natural disaster or other significant event. In
            addition, ATF management did not fully enforce ATF
            Order 3400.1B, Property Taken Into Bureau Custody,
            which prescribes the basic procedures governing the
            reporting and controlling of property taken into
            custody, from the time of initial acquisition to its final
            disposition. As a result, ATF faces a risk of seized
            assets and evidence being lost, stolen, or destroyed.

       To assess the adequacy of ATF’s accounting for, storing, safeguarding,
and disposing of seized assets and evidence in its possession, we reviewed
its Critical Incident Management System (CIMS) handbooks and ATF Order
3400.1B. The CIMS establishes ATF guidelines, objectives, and procedures
for managing major complex investigations or other designated operations
and for responding to and resolving various kinds of critical incidents. It also
describes ATF’s involvement in post-critical incident activities, such as
continuing investigations, subsequent trials, and general recovery activities.
The ATF Order 3400.1B prescribes basic procedures governing reporting and
controlling of property taken into ATF custody and sets forth facility and
equipment requirements, access requirements and restrictions, inventory
procedures, and property control. We also met with ATF’s Asset Forfeiture
and Seized Property Branch and respective Agents-in-Charge in the Gulf
Coast region to determine whether a plan was in place that addressed
safeguarding seized assets and evidence in the event of a natural disaster or
other significant event. In addition, we conducted compliance testing for
seized assets and evidence.

Controls for Storing and Safeguarding Seized Assets

      While ATF has a Critical Incident Management System, it does not
specifically address how seized assets and evidence should be safeguarded
in the event of a natural disaster or other significant event. We believe
having a plan in place specifying how seized assets and evidence should be
safeguarded in the event of a natural disaster or other significant event is a
prudent management practice. If evidence were lost, in our opinion, ATF
would not be able to fully support its mission and may result in ATF being
unable to pursue a criminal case in federal court. During our May 10, 2006
                                       15
follow-up work at ATF Headquarters, we asked the SAC of the Asset
Forfeiture and Seized Property Branch why evidence security is not
considered an essential function of the ATF. The SAC informed the OIG that
she was not sure and that it would make sense to have evidence security as
an essential function. Doing so would be directly related to supporting ATF’s
mission. We also asked what would happen to a case if a seized item was
lost, stolen, or damaged. ATF told the OIG that the worst case scenario
would result in having a case excluded from being tried in Federal court.
Lastly, the SAC agreed when the OIG asked whether ATF should have a plan
in place that addresses safeguarding evidence in the event of a natural
disaster or other significant event. Furthermore, ATF Order 3400.1B does
not address safeguarding seized assets or evidence in preparation for or in
response to a natural disaster. According to the Chief of the Security and
Emergency Programs Division, “Seized evidence security is a component of
ATF’s ability to successfully investigate firearms, arson, and explosives
cases.” In meeting its mission during criminal investigations, ATF obtains
seized evidence that requires close control and a high level of security.

      During our field work and shortly after Hurricane Katrina hit the Gulf
Coast, we contacted the Acting Special Agent-in-Charge of the Seized Assets
and Forfeited Property Branch at ATF headquarters to determine the extent
to which field office vaults containing seized evidence were impacted by the
hurricane. He informed the OIG that the New Orleans, Louisiana; Biloxi,
Mississippi; and Mobile, Alabama, field offices were affected to varying
degrees, but he was not aware of any seized assets and evidence impacted
by the hurricane.

      Two of the three office buildings (in New Orleans and Mobile) sustained
rain or flood water damage causing environmental issues with black mold or
raw sewage. The third office in Biloxi lost the entire first floor of the
building, and became structurally unstable. The following is a photograph of
the Biloxi Field Office and the damage sustained.




                                     16
                         Biloxi, Mississippi, Field Office




Source: Bureau of Alcohol, Tobacco, Firearms and Explosives




                                          17
       Since ATF did not have a contingency plan in place establishing
alternate locations in which to house vault contents, seized assets and
evidence had to be recovered from the structurally unstable Biloxi Field
Office and relocated to various alternate sites that were not always approved
storage facilities. Items recovered from the Biloxi vault included firearms,
ammunition, electronic intercepts, drugs, silencers, documents, and arson
evidence. ATF officials in the field told the OIG they originally moved
firearms to the Biloxi Police Department’s evidence closet. ATF officials also
told the OIG the firearms were subsequently moved, along with the
remaining items left in the Biloxi field office vault, to Jackson, Mississippi
where they were placed in a U-Haul trailer and parked in the federal building
garage basement. The garage basement does not comply with federal
storage security requirements. Therefore, we believe the facility presented a
risk of loss. The remaining two moves for Biloxi items involved using a
national contractor storage facility. By the time we conducted our testing for
the Biloxi contents, the items had been moved from one national contractor
location in Memphis, Tennessee to another in Mobile, Alabama. These four
moves mentioned above required transporting the items approximately 795
miles. We conducted our verification of Biloxi’s items in Mobile, Alabama.
No risks were noted while on site at the national contractor storage facility
being utilized in Mobile, Alabama. The New Orleans office did not originally
move items from the vaults since the structure was in-tact. The only risk
noted for New Orleans was related to black mold contamination, but the
items were not affected. However, after securing a temporary office location
and constructing a new temporary vault that met federal specifications, they
moved all items to Covington, Louisiana without incident. All items tested
were accounted for. The Mobile office did not move any items from the
Mobile vault before or after Hurricane Katrina. All items tested were
accounted for.

Critical Incident Management System and ATF Order 3400.1B

      We asked the Special Agent-in-Charge (SAC) of the Asset Forfeiture
and Seized Property Branch whether ATF had a written contingency plan in
place prior to Hurricane Katrina. During our follow-up work, the SAC
confirmed that the plan used by ATF did not address securing seized assets
and evidence in the event of a natural disaster or other significant event.
However, we were informed that ATF had been utilizing the Critical Incident
Management System (CIMS) since 1998 to handle critical incidents ranging
from criminal enforcement to natural disasters.



                                     18
       ATF’s Chief of the Security and Emergency Programs Division and the
SAC of the Asset Forfeiture and Seized Property Branch both stated that ATF
followed the CIMS guidance in responding to Hurricane Katrina. The CIMS
establishes ATF guidelines, objectives, and procedures for managing major
complex investigations or other designated operations and for responding to
and resolving various kinds of critical incidents. It also describes ATF’s
involvement in post-critical incident activities, such as continuing
investigations, subsequent trials, and general recovery activities. Other
jurisdictional, legal, and media relations issues are addressed as well. The
CIMS did not discuss specifically the topic of securing seized assets or
evidence.

       According to the CIMS, three levels of standardized responses exist
within ATF. The first level is activated for critical incidents that have only
local impact and limited sensitivity, such as conducting joint search and
arrest warrants with other law enforcement agencies, exercising multiple
arrest and search warrants over a diverse geographical area involving
multiple ATF teams, conducting a long-term, relatively low profile
investigation with other participating jurisdictions from within the field
division area in an environment of increased risk and intensity. The second
level of response is activated for critical incidents having a broader or more
regional impact and possessing a higher degree of sensitivity or significance,
such as requirements for a unified command group as opposed to a single
incident commander, requirements for dedicated manpower and committed
resources beyond that available to the division director, an increased
potential for collateral problems requiring additional consideration (a second
crisis site, crowd control, or increased media attention). The third level of
response is activated for critical incidents that have national impact, a high
degree of visibility and sensitivity, and for events that require a significant
commitment of ATF resources and those of federal, state, and local
agencies. The Deputy Assistant Director of Field Operations stated that the
response to Katrina required a Level III response. 16

      We reviewed ATF Order 3400.1B because it prescribes the basic
procedures governing the reporting and controlling of property taken into
custody, from the time of initial acquisition to its final disposition. 17


       16
          In a Level III critical incident, a response team will always have a support team.
In a lower level incident, a support team may not be used.
       17
          This is an ATF Order that is a standalone document independent of the CIMS, or
any other ATF document.
                                             19
Although the Order outlines the seizing agent’s responsibilities when seizing
or otherwise taking personal property into ATF custody, it does not provide
guidance for safeguarding seized assets or evidence in the event of a natural
disaster or other significant event.

       None of the three field offices proactively identified alternate storage
locations to safeguard seized assets and evidence in the event primary
locations became unavailable. Although not included in ATF Order 3400.1B,
or any other ATF Directive or Order, the SAC of the Asset Forfeiture and
Seized Property Branch stated using another evidence vault within this
division would be left up to the field division SAC. 18 In order to better
safeguard seized evidence from theft, loss, or destruction, we believe ATF
should have a contingency plan in place to proactively identify alternate
storage locations where seized assets and evidence can be stored in the
event of a natural disaster or other significant event.

Compliance Testing

      To provide insight into ATF’s management of seized property, we
reviewed eight field offices, eight vaults, and six explosive storage bunkers
within three field divisions. Our testing was designed to determine if ATF
had effective controls over storing and safeguarding seized assets and
evidence, including vault construction security requirements and tracing
firearms through the National Tracing Center. 19 We randomly selected items
from ATF’s inventory system and compared those with the items in the
vaults. We also judgmentally selected items in the vaults and compared
them to the vault inventory system listings. We then selected items
approved for disposal and traced them through the process to final
disposition.

      The results of testing did not disclose any material weaknesses in
ATF’s storing of seized assets and evidence, but did reveal two significant
issues listed below. Appendix IV contains the comprehensive results of our
testing.

       18
           The Asset Forfeiture and Seized Property Branch indicated a field division has the
option to request ATF’s national contractor to provide storage before seeking division space.
       19
           ATF’s National Tracing Center Division is the only organization authorized to trace
U.S. and foreign manufactured firearms for international, federal, state, and local law
enforcement agencies. Its purpose is to provide investigative leads in the fight against
violent crime and terrorism and to enhance public safety.

                                             20
Minimum Security Structure Requirements

      One of the eight evidence vaults tested (Beaumont, Texas) did not
meet minimum security structure requirements. 20 A wire-mesh barrier
above the chain-link fence to prevent unauthorized entry from the ceiling
was not installed. Although local management raised concerns regarding the
vault meeting the minimum security vault requirements, ATF has not taken
corrective action. This condition was also noted as an exception to the
requirements of ATF Order 3400.1B in 1997, 2000, and 2003 ATF Office of
Field Operations inspection reports. The condition leaves the vault
vulnerable to unauthorized entry and increases the risk of theft of seized
property and evidence.

National Tracing Center

      Effective July 2005, every firearm coming into ATF custody or being
investigated by ATF is required to be traced through the ATF National
Tracing Center. We found 6 of 130 firearms we tested, or 5 percent were
not traced through the National Tracing Center.

       During our field work, we determined that the seizing agents either did
not request a trace of the seized firearms through the National Tracing
Center or traced them with an incorrect serial number. All firearms
manufactured in 1968 or after have unique serial numbers. Not tracing a
firearm or submitting a wrong serial number through the National Tracing
Center equates to not accounting for the correct firearm. Further, this
situation prevents the correct information from being received in an accurate
and timely manner. It also potentially prevents ATF from linking a suspect
to a firearm in a criminal investigation; identifying potential traffickers;
detecting intrastate, interstate, and international patterns in the sources and
kinds of firearms used in crimes; thus increasing the risk to the public until
the individual allegedly responsible for the crime is identified and taken into
custody. This issue was corrected by ATF during our field work by
requesting a new trace on the 6 firearms through the National Tracing
Center.




       20
           The Beaumont, Texas, office was struck by Hurricane Rita in 2005. Damage to
the building forced ATF staff at the office to temporarily relocate. The contents of the vault
were moved into temporary storage and remain there as of June 5, 2006.

                                              21
Conclusion

       ATF lacks a proactive contingency plan that specifically addresses
accounting for, storing, and safeguarding seized assets and evidence in the
event of a natural disaster or other significant event. After Hurricane
Katrina impacted the Gulf Coast region, items contained in the Biloxi Field
Office vault had to be moved multiple times before reaching their current
location in Mobile, Alabama. In our judgment, ATF was fortunate that no
significant damage to seized assets and evidence was sustained. Therefore,
we believe additional direction for preparedness should be developed to
ensure that all ATF field components have the necessary written guidance
for safeguarding seized assets and evidence.

       ATF management did not fully enforce ATF Order 3400.1B which
prescribes the basic procedures governing the reporting, controlling, and
safeguarding property taken into custody, from the time of initial acquisition
to its final disposition. One vault did not meet the minimum security
requirements and all firearms taken into ATF custody were not traced
through the National Tracing Center.

Recommendations

      We recommend that ATF:

3.    Establish a plan that addresses safeguarding seized assets and
      evidence in the event of a significant act, such as a natural disaster.

4.    Ensure that the vault at the Beaumont, Texas, Field Office meets the
      minimum structure security requirements.

5.    Ensure that all firearms taken into custody since July 2005 are traced
      through the National Tracing Center.




                                      22
                                                                 APPENDIX I

           STATEMENT ON MANAGEMENT CONTROLS

      In planning and performing our audit of ATF’s management of seized
assets and evidence, we considered the Asset Forfeiture and Seized Property
Branch’s and ATF field divisions’ management controls for the purposes of
determining our auditing procedures. However, the evaluation of
management controls was not made for the purpose of providing assurance
on ATF’s internal control structure as a whole.

       Reportable conditions, as defined by the Government Auditing
Standards, involve matters coming to our attention relating to significant
deficiencies in the design or operation of the internal control structure that,
in our judgment, could adversely affect ATF’s ability to administer and
control seized assets and evidence. We noted some issues relating to ATF’s
procedures for handling seized assets and evidence and partial
non-compliance with its Order 3400.1B. However, we did not consider these
deficiencies to be reportable conditions as defined above or the result of
systemic internal control deficiencies.

       Because we are not expressing an opinion on ATF’s internal control
structure as a whole, this statement is intended solely for the information
and use of ATF.




                                      23
                                                               APPENDIX II

               STATEMENT ON COMPLIANCE WITH
                   LAWS AND REGULATIONS

      We audited ATF’s management of seized assets and evidence. We
conducted fieldwork at headquarters offices of ATF, ATF’s Asset Forfeiture
and Seized Property Branch, the Department of Justice’s AFMS, and at
several ATF field division offices. We performed fieldwork between July 2005
and June 2006.

       We conducted our audit in accordance with the generally accepted
Government Auditing Standards. In connection with the audit, as required
by the Standards, we reviewed procedures, activities, records, and seized
assets and evidence to obtain reasonable assurance that the ATF Asset
Forfeiture and Seized Property Branch and ATF’s field divisions complied with
federal laws, regulations, and DOJ policies and procedures that apply to
seized assets and evidence that, if not complied with, in our judgment, could
have a material effect on management of seized assets and evidence.
Compliance with laws and regulations relating to seized assets and evidence
is the responsibility of the ATF’s Asset Forfeiture and Seized Property Branch
and ATF’s field divisions.

     Our audit included examining, on a test basis, evidence about
compliance with applicable federal laws, regulations, and DOJ policies and
procedures contained in the relevant portions of:

      •     H.R. 5005 (An Act to establish the Department of Homeland
            Security, and for other purposes)
      •     18 U.S.C. § 842
      •     18 U.S.C. § 922
      •     18 U.S.C. § 981
      •     18 U.S.C. § 982
      •     18 U.S.C. § 983
      •     18 U.S.C. § 2342
      •     21 U.S.C. § 881
      •     26 U.S.C. § 5842
      •     26 U.S.C. § 5861
      •     26 U.S.C. § 5872
      •     28 U.S.C. § 524
      •     28 C.F.R. § 0.111(i)
      •     Executive Order 12656
      •     DOJ Asset Forfeiture Policy Manual, January 2005
                                      24
                                                               APPENDIX II

     •     Alcohol, Tobacco, Firearms and Explosives’ Order 3400.1B,
           July 2005
     •     Alcohol, Tobacco, Firearms and Explosives’ Brief 3400.13
     •     Memorandum from the Associate Deputy Attorney General
           directing participation by all DOJ organizations to transition to
           the new integrated asset forfeiture system, September 1990
     •     Memorandum of Understanding between DOJ and the
           Department of the Treasury for the management and disposition
           of property seized for forfeiture by ATF, January 2003

      Except for instances of non-compliance identified in the Findings and
Recommendations section of this report, ATF’s Asset Forfeiture and Seized
Property Branch and ATF’s field divisions were in compliance with the
relevant portions of the specific laws, regulations, and DOJ policies and
procedures previously named.




                                     25
                                                               APPENDIX III

           OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

      Our objectives were to: (1) determine the status of ATF’s transition to
DOJ’s system for managing seized assets; and (2) assess the adequacy of
ATF’s accounting for, storing, safeguarding, and disposing of seized assets
and evidence in its possession.

Scope and Methodology

       The audit covered the period from January 24, 2003, to
June 30, 2006. As part of the audit, we reviewed federal laws, regulations,
and DOJ policies and procedures applicable to seized assets and evidence, as
well as inspection reports from ATF’s Office of Field Operations for all 23 ATF
field divisions. We reviewed the MOU between the Treasury and DOJ for the
management and disposition of property seized for forfeiture by ATF. In
addition, we reviewed the September 1990 memorandum from the Associate
Deputy Attorney General, directing all DOJ organizations participating in the
asset forfeiture program to develop plans for orderly transition to the new
integrated asset forfeiture system. We also reviewed the non-profit
corporation’s reports, CATS-FASTRAK Gap Analysis, June 2003;
CATS-FASTRAK Alternatives and Recommendations, July 2003; and ATF
FASTRAK – Version 7.09/DOJ BBC Gap Analysis Summary, June 2005.

      We interviewed officials from ATF’s Asset Forfeiture and Seized
Property Branch, Special Agents-in-Charge of field divisions, and Resident
Agents-in-Charge of field offices where testing was conducted. We also
interviewed contractor personnel responsible for securing items from ATF’s
assets seized for forfeiture in the areas of the Gulf Coast region affected by
Hurricane Katrina.




                                      26
                                                              APPENDIX III

     We performed on-site audit work at the following locations:

                       Office                       Location
     ATF Headquarters                        Washington, D.C.
     Houston field offices                   Houston, Texas
      Group I, II, III, IV, and V
     Beaumont Field Office                   Beaumont, Texas
     San Antonio Field Office                San Antonio, Texas
     New Orleans Field Offices               Covington, Louisiana
      Group I, II, IV, and V
     Biloxi Field Office                     Gulfport, Mississippi
     Mobile Field Office                     Mobile, Alabama
     United States Marshals Service          Arlington, Virginia
      Asset Forfeiture Office
     United States Marshals Service          Dallas, Texas
     United States Attorneys’ Offices        Dallas, Texas;
                                             New Orleans, Louisiana
     Justice Management Division
      Asset Forfeiture Management Office     Washington, D.C.

      On September 16, 2005, the ATF Assistant Director, Office of
Professional Responsibility and Security Operations requested a 60-day
suspension of our audit due to ATF’s involvement in responding to the
Hurricane Katrina catastrophe. This request was granted.

Analysis and Testing

     To determine the status of ATF’s transition to DOJ’s asset management
system for managing seized assets, we:

     •     reviewed ATF Order 3400.1B, which addresses property taken
           into ATF’s custody;

     •     tested ATF’s compliance with applicable federal laws and
           regulations and DOJ policies and procedures that apply to seized
           assets and evidence;

     •     interviewed ATF Asset Forfeiture and Seized Property officials,
           Special Agents-in-Charge of selected ATF field divisions, and
           Resident Agents-in-Charge of selected ATF field offices regarding

                                        27
                                                             APPENDIX III

           their knowledge of federal laws and regulations and DOJ policies
           and procedures that apply to seized assets and evidence; and

     •     interviewed Justice Management Division AFMS regarding the
           CATS system and ATF’s migration of forfeited asset data to the
           system.

     To assess the adequacy of ATF’s controls over accounting for, storing,
safeguarding, and disposing of seized assets and evidence in its possession,
we:

     •     obtained automated data from ATF;

     •     performed tests to ensure property items reported were
           appropriately accounted for and that property items in storage
           agreed with automated records;

     •     tested to determine if property items were stored in authorized
           and appropriate storage containers;

     •     analyzed whether property items were stored in facilities that
           met federal requirements and were appropriately safeguarded;

     •     performed tests to verify that items shown as disposed of in the
           automated system agreed with physical records; and

     •     tested physical disposal records to determine that required
           documentation was present to substantiate the final disposition
           of the property items.




                                     28
                                                                            APPENDIX IV

                            RESULTS OF AUDIT TESTING

      During our audit testing of the eight vaults and six explosive storage
bunkers, we noted several areas of non-compliance with ATF Order 3400.1B.
However, we did not deem these exceptions to be the result of a systemic
breakdown of internal controls. The results below are being provided to ATF
Asset Forfeiture and Seized Property Branch management for action it
deems appropriate.

       •      Ten of 201 firearms tested from a universe of 1,144 did not have
              the required “zip tie” placed on the firearm to make it
              inoperable. 21 This issue was corrected by ATF during our field
              work at the office.

       •      Fifty-six of 124 firearm tracing results from a universe of 524
              were not filed in Section 5 of the investigative file. According to
              ATF Order 3400.1B, Chapter G, Section 91.b, “Trace results will
              be placed in Section 5 of the field office case file.”

       •      Ten of 604 items tested from a universe of 3,659 had a property
              tag attached that did not accurately identify the property. This
              issue was corrected by ATF during our field work.

       •      Two of 24 vault custodians did not meet the minimum grade
              level or minimum number of years as an ATF special agent. 22
              The two custodians that were not in compliance were
              subsequently replaced with custodians who met the
              requirements.

       •      In one of three instances where a change in vault custodian
              occurred, the required inventory was not conducted before the
              new custodian took responsibility for the contents of the vault.




       21
          ATF defines a zip tie as a plastic wire wrap installed in a manner that causes the
firearm to be inoperable.
       22
          The minimum grade level for a custodian is a GS-12 with 3 years of service as a
Special Agent.
                                             29
                                                                        APPENDIX IV

      •      Four of 300 items tested from a universe of 509 were not
             destroyed within the 90-day authorization period. 23 However,
             appropriate documentation was presented showing the items
             had ultimately been destroyed.




      23
          ATF Order 3400.1B requires that seized assets approved for destruction be
disposed of within 90 days from the approval date.
                                           30
                                                      APPENDIX V

                       ACRONYMS

AFMS       Asset Forfeiture Management Staff
ATF        Bureau of Alcohol, Tobacco, Firearms and Explosives
CATS       Consolidated Asset Tracking System
CIMS       Critical Incident Management System
DOJ        Department of Justice
FASTRAK    Forfeited and Seized Assets Tracking System
FY         Fiscal Year
MOU        Memorandum of Understanding
OIG        Office of the Inspector General
SAC        Special Agent-in-Charge
Treasury   Department of the Treasury
USMS       United States Marshals Service




                             31
     APPENDIX VI




32
     APPENDIX VI




33
     APPENDIX VI




34
                                                              APPENDIX VII

     OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION,
            ANALYSIS AND SUMMARY OF ACTIONS
                NECESSARY TO CLOSE REPORT


Recommendation Number:

1.     Resolved. The Bureau of Alcohol, Tobacco, Firearms and Explosives
       (ATF) agreed with our recommendation. ATF has assured the OIG that
       it will continue to work with the Asset Forfeiture Management Staff
       (AFMS) to resolve ATF’s system requirements and that it will continue
       to work toward the established estimated completion date of June 30,
       2007. In order to close this recommendation, ATF should provide the
       OIG with documentation that substantiates the successful migration of
       ATF data to the Consolidated Asset Tracking System (CATS).

2.     Resolved. ATF agreed with our recommendation. ATF stated that it
       has provided the AFMS and the Treasury Executive Office for Asset
       Forfeiture (TEOAF) with appropriate supporting documentation
       necessary for the expeditious reconciliation and transfer of currently
       forfeited funds. In order to close this recommendation, ATF should
       provide the OIG with documentation that substantiates all funds at
       TEOAF have been transferred to the AFMS. In addition, ATF should
       provide us with written procedures requiring periodic reconciliation and
       the transfer of future forfeited funds held by TEOAF. The procedures
       will be utilized until ATF begins using CATS.

3.     Resolved. ATF agreed with our recommendation. ATF stated that it
       will implement a short-term solution that includes relocating seized
       assets and evidence in the event of a natural disaster or other
       significant event by commercial truck or trailer and storage in a
       commercial warehouse. ATF also stated that its long-term solution
       includes revising ATF Order 3400.1B, “Critical Incident Management
       System, and Continuity of Operations Plan,” to provide for the prompt
       relocation of seized assets and evidence in the event of a natural
       disaster or other significant event. In order to close this
       recommendation, ATF should provide us with documentation
       substantiating that the short-term solution was officially implemented
       nation-wide. In addition, ATF should provide us with the revised ATF


                                      35
                                                              APPENDIX VII

     Order 3400.1B, “Critical Incident Management System, and Continuity
     of Operations Plan.”

4.   Resolved. ATF agreed with our recommendation. ATF stated that the
     Beaumont, Texas, Field Office has been refurbished and the vault now
     meets ATF minimum security requirements. In order to close this
     recommendation, ATF should provide us with documentation
     substantiating that the vault meets minimum security requirements
     and that it has been inspected and approved by the appropriate
     authority.

5.   Resolved. ATF agreed with our recommendation. ATF’s Deputy
     Director issued a memorandum to all ATF field divisions reminding the
     field offices to accurately enter firearm data into N-Force. In addition,
     this memorandum reminded the field divisions to submit data for all
     firearms not previously traced due to operational security. In order to
     close this recommendation, ATF should provide us with a certification
     that all firearms taken into ATF custody since July 2005 and that have
     not been disposed of have been traced through the National Tracing
     Center, with the exception of those firearms for which a trace would
     jeopardize ongoing investigations.




                                     36
